CERTIFICATE OF SERVICE
No. _________
SHAWN C. RUTLAND,
Petitioner,
v.
WARDEN, SMITH STATE PRISON,
Respondent.
By my signature below, I hereby certify that I have served three (3) copies of this
Petition for Writ of Certiorari upon all parties required to be served, in compliance
with Rule 29 of the Rules of the Supreme Court of the United States, by sending the
copies through the United States mail, first-class, with appropriate postage, to the
counsel of record listed below:
Clint C. Malcolm
Attorney for Respondent
Assistant Attorney General
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, GA 30334
(404) 463-8784
DATED this 15th day of October, 2019.
/s/ Laura D. Hogue
LAURA D. HOGUE
Georgia Bar No. 786090
Counsel for Petitioner
Hogue Hogue Fitzgerald & Griffin
341 Third Street
P. O. Box 1795
Macon, GA 31202-1795
(478) 750-8040 telephone
(478) 738-0859 facsimile
laura@hogueandhogue.com

